                    U. S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF INSPECTOR GENERAL
                 
 
 
 
 
 
    REORGANIZATION OF THE WORKING CAPITAL FUND
         AND THE INTERIOR FRANCHISE FUND
 
 
 

 




                                                      

 

 

 

 

 


ER-EV-PMB-0001-2009                      June 2009
 

 
WHY WE PERFORMED THIS EVALUATION
We performed this evaluation to determine whether the
Department’s intent to reorganize the WCF and IFF is legally          Working Capital Fund 
permissible and, if it is, whether existing policies and procedures
would ensure adequate accountability under the proposed               The WCF finances activities 
organizational structure. To do so, we evaluated the current          on a reimbursable basis, 
organization of the WCF and IFF and their proposed                    including centralized 
reorganization. Our review also covered documentation of              services provided by the 
procedures and the status of past findings. See Appendix A for        Office of the Secretary and, 
scope, methodology, and related reports.                              currently, all NBC lines of 
                                                                      business except acquisition 
    BACKGROUND ON THE REORGANIZATION PLAN                             and federal consulting 
                                                                      services.  WCF charges fees 
NBC provides a variety of administrative and financial services       to offset operational 
to DOI bureaus and offices and other federal agencies through         expenses and recover 
two separate funds, the WCF and the IFF. The Department plans         costs, including two 
to transfer all NBC services, and related assets and liabilities,     reserve accounts.  
from the WCF to the IFF. DOI managers anticipate this
reorganization would 1) increase retained reserves to fund
additional Department-wide initiatives, 2) provide consistent         Interior Franchise Fund 
financial and business management practices and oversight to
                                                                      DOI and other federal 
ensure adequate accountability and reporting, and 3) maintain
continued economies of scale for centralized services.                agencies use the IFF to 
                                                                      obtain services on a 
WHAT WE LEARNED                                                       competitive basis, such as 
                                                                      administrative and 
We found that the Interior Appropriations Act precludes the           information technology 
transfer of mandatory NBC services from the WCF to the IFF.           support.  Managers should 
Further, NBC has improperly managed the IFF by failing to
                                                                      charge fees that recover 
establish an operating reserve separate from the capital
                                                                      full operational expenses 
improvements reserve. Specifically, NBC managers have not:
                                                                      plus an amount necessary 
•    ensured that IFF operations comply with internal policy of       to maintain a reasonable 
     September 2, 2008, which requires separate reserves for day-     operating reserve.  In 
     to-day operations and a reserve for capital investments or       addition, the IFF is 
                                                                      authorized to retain up to 
•    documented reserve limit calculations, reviews, or approvals.    4 percent of its total 
                                                                      annual income in a capital 
                                                                      improvements reserve. 




                                                 1 

 
TRANSFER OF MANDATORY SERVICES WOULD VIOLATE THE INTERIOR
APPROPRIATIONS ACT

A legal obligation to provide services competitively is a central feature of any franchise fund.
The competitive nature of such funds encourages the Government to operate in a more efficient,
                                                 business-like manner. The Act expressly
                                                 includes this criterion, requiring the IFF to offer
                                                 services only on a “competitive basis.”
                Mandatory services for 
     Department Offices and Bureaus               To promote a competitive environment and add
       are centrally billed through the           further clarity to franchise fund requirements,
             WCF and include financial            the Office of Management and Budget and the
                  management, payroll             Chief Financial Officers Council established 12
        processing, training, aviation,           business operating principles at the request of
     facilities and asset management              the Congress (see Appendix B). The
           and information technology 
                                                  Government Accountability Office (GAO)
                                                  described these principles as “criteria for
                               services.  
                                                  operation” for franchise funds. Competition
                          Data Source:            and voluntary exit are two of the principles.
        DOI FY 2009 Budget Justification          Competition is “the provision of services . . . on
                                                  a fully competitive basis. The organization’s
                                                  operation should not be ‘sheltered’ or be a
                                                  monopoly.” Voluntary Exit means “customers
should be able to ‘exit’ and go elsewhere for services after appropriate notification to the service
provider and be permitted to choose other providers to obtain needed service.” These two
principles are consistent with the ordinary meaning of competition, which again, is specifically
required by the Act.

Implementation of the DOI plan to transfer all NBC services from the WCF to the IFF would
violate the Interior Appropriations Act requirement that all IFF services be offered on a
competitive basis because some of the services are mandatory for customer agencies and offices.
It would also violate two franchise fund business operating principles. Therefore, NBC
mandatory services must remain in the WCF where no competition requirement exists.


NBC MANAGERS HAVE NOT PROPERLY MANAGED RESERVE FUNDS

The Act authorizes the Secretary to set a fee at a rate that returns in full all operating expenses,
provides a reasonable operating reserve, and allows for a separate Department-wide capital
improvements reserve that is limited to 4 percent of the total annual IFF income. The NBC
September 2008 policy mirrors the Act. It establishes an operating reserve and limits the capital
improvements reserve to 4 percent, although it fails to provide specific measures to monitor the
amount of the capital improvements reserve. We found, however, that NBC managers do not
distinguish between operating reserves and capital improvements even though their own policy

                                                 2 

 
requires the distinction. For example, all retained earnings are maintained in one reserve. This
reserve is used for operating expenses, as well as Department-wide initiatives. Further, NBC
managers do not document reserve limit calculations, reviews, or approvals. They may not be,
therefore, in compliance with the Act.

OPERATING RESERVES VERSUS CAPITAL IMPROVEMENTS

                                                                   DOI Appropriations Act, 
The Interior Appropriations Act authorizes the Department
to establish a reasonable IFF operating reserve separate           1997 establishing IFF 
from a capital improvements reserve. One way the Act               Such funds shall be paid . . . at 
differentiates between operating reserves and capital              rates which will return in full 
improvements is by the limits it establishes. An operating         all expenses of operation, 
reserve must be “reasonable,” while capital improvements
                                                                   including accrued leave, 
reserves are limited to 4 percent of total IFF annual income.
                                                                   depreciation of fund plant 
Further, the September 2008 NBC policy states that the             and equipment, amortization 
operating expenses and reserves take precedence over               of automatic data processing 
capital improvements. Fees charged to customers are to be          (ADP) software and systems 
used for operating expenses and a reasonable operating             and an amount necessary to 
reserve. Only after these requirements are met should the          maintain a reasonable 
IFF accumulate excess funds for capital improvements.              operating reserve . . . 
                                                                   Provided further, That an 
The IFF does not maintain separate operating and capital           amount not to exceed four 
improvements reserves. Their failure to do so undermines           percent of the total annual 
the intent of the Act. NBC officials stated that the IFF uses      income to such fund may be 
only one reserve that is limited to 4 percent of total IFF
                                                                   retained in the fund . . . to be 
annual income. If this reserve is bound by the 4 percent
rule, NBC is treating it as a capital improvements reserve.        used for the acquisition of 
Without a separate operating reserve, NBC cannot make              capital equipment, and for 
good management decisions on behalf of the IFF. Further,           the improvement of 
it is impossible to know if the fees charged to customers are      Department financial 
appropriate and sufficient. NBC managers, therefore, are           management, ADP, and other 
not administering the IFF properly.                                support systems.  
                                                                    

DOCUMENTATION OF RESERVE LIMIT CALCULATIONS

During the audit of the fiscal year (FY) 2008 Departmental Offices’ financial statements, DOI’s
independent auditors found more than 40 problems related to the operation of NBC and the IFF.
All but one of these findings relate to IT security.

However, the one non-IT security finding, “Lack of documentation of review and approval of
retained revenue,” raises concerns regarding reserve accountability because expanding the
services of the IFF would magnify the problem. NBC managers calculate the amount of income

                                                 3 

 
that the IFF can retain every year and compare the calculation to the amount kept in equity to
ensure that the fund does not retain revenue in excess of 4 percent. However, NBC managers did
not require documentation or review of the FY 2008 calculation and comparison. Without
proper documentation, NBC cannot establish that the calculation was ever done, let alone ensure
compliance with the Act. NBC disagreed with the finding and stated in response, “[t]he
additional management controls would increase our costs and demonstrate limited return on
investment.” Such a reply suggests an emphasis on revenue to the detriment of reserve
accountability.

CONCLUSION
The Interior Appropriations Act precludes the transfer of mandatory lines of business from the
WCF to the IFF. In addition, IFF reserves have been and are being improperly managed.

RECOMMENDATIONS
By implementing the following recommendations, we believe DOI can address the problems
identified in this report.

1. Identify the NBC mandatory service, or non-competitive, lines of business and ensure these
   lines of business remain in the WCF.

2. Delay the transfer of any of the NBC lines of business from the WCF to the IFF pending the
   implementation of an operating reserve and appropriate management controls over both
   reserve accounts.

3. Establish clearly defined “reasonable” limits for the IFF operating reserve.

4. Create an IFF operating reserve that reflects these “reasonable” limits.

5. Require process documentation for calculating reserve amounts to ensure revenue does not
   exceed the established limits for the operating and capital improvements reserves.




                                                4 

 
                APPENDIX A — SCOPE, METHODOLOGY, AND
               SELECT REPORTS ON REVOLVING FUND ISSUES



Scope and Methodology
We performed our evaluation in accordance with the President’s Council on Integrity and
Efficiency “Quality Standards for Inspections.” The evaluation focused on the current and
proposed organizational structures of the WCF and the IFF; we reviewed the status of past
findings and documentation of procedures. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.

As part of our evaluation, we:

           •   obtained a general understanding of the WCF and IFF authorities, policies, and
               procedures;

           •   reviewed the FY 2009 Budget Justification;

           •   reviewed prior reports issued by DOI OIG and GAO;

           •   interviewed Department personnel; and

           •   reviewed accounting and financial information.


Select Reports
June 2008 — “Management Letter Concerning Issues Identified During the Audit of the
   Departmental Offices Financial Statements for Fiscal Years 2007 and 2006” (X-IN-OSS-
   0007-2008)

February 2008 — “Audit of FY2006 and FY2007 Department of Defense Purchases Made
   Through the Department of the Interior” (Y-IN-MOA-0001-2007)

March 2006 — “Fee-for-Service Organizations, Department of the Interior” (C-EV-MOA-0016-
  2005)

January 2005 — “High-Risk Series: An Update” (GAO-05-207)




                                               5 

 
             APPENDIX B — 12 BUSINESS OPERATING PRINCIPLES 



Operating
                          OMB Description
Principle

Services                  The enterprise should only provide common administrative support services.  
                          The organization would have a clearly defined organizational structure including readily 
                          identifiable delineation of responsibilities and functions and separately identifiable units 
Organization              for the purpose of accumulating and reporting revenues and costs. The funds of the 
                          organization must be separate and identifiable and not commingled with another 
                          organization.  
                          The provision of services should be on a fully competitive basis. The organization’s 
Competition
                          operation should not be “sheltered” or be a monopoly.  
                          The operation should be self‐sustaining. Fees will be established to recover the “full 
Self‐sustaining/ 
                          costs,” as defined by standards issued in accordance with FASAB (the Federal 
Full Cost Recovery  
                          Accounting Standards Advisory Board).  
Performance               The organization must have a comprehensive set of performance measures to assess 
Measures                  each service that is being offered.  
                          Cost and performance benchmarks against other “competitors” are maintained and 
Benchmarks  
                          evaluated.  
Adjustments to      The ability to adjust capacity and resources up or down as business rises or falls, or as 
Business Dynamics   other conditions dictate, if necessary.  
                          Resources to provide for “surge” capacity and peak business periods, capital 
Surge Capacity  
                          investments, and new starts should be available.  
                          The organization should specify that prior to curtailing or eliminating a service, the 
                          provider will give notice within a reasonable and mutually agreed time frame so the 
Cessation of 
                          customer may obtain services elsewhere. Notice will also be given within a reasonable 
Activity  
                          and mutually agreeable timeframe to the provider when the customer elects to obtain 
                          services elsewhere.  
                          Customers should be able to “exit” and go elsewhere for services after appropriate 
Voluntary Exit            notification to the service provider and be permitted to choose other providers to 
                          obtain needed service.  
                          Full Time Equivalents (FTEs) would be accounted for in a manner consistent with the 
FTE Accountability  
                          Federal Workforce Restructuring Act and OMB requirements, such as Circular A‐11.  
                          Capitalization of franchises, administrative service, or other cross‐servicing operations 
Initial 
                          should include the appropriate FTE commensurate with the level of effort the operation 
Capitalization 
                          has committed to perform.  
Source: OMB and Chief Financial Officers Council

                                                         6 

 
                                          


             Report Fraud, Waste, Abuse,   
                and Mismanagement
                                            
                     Fraud, waste, and abuse in government 
                     concern everyone.   Office of Inspector 
                                            
                     General staff, Departmental employees, 
                       and the general public.  We actively 
                     solicit allegations of any inefficient and 
                       wastef ul practices, fraud, and abuse 
                     related to Departmental or Insular Area 
                    programs and operations.  You can report 
                         allegations to us in several ways.  
                                          
                                          
                                              
                                          
                                          
        By  Mail :           U.S. Department of the Interior  
                             Office of Inspector General  
                             Mail Stop 4428 MIB  
                             1849 C Street, NW  
                             Washington, D.C. 20240  
          
        By Phone  :          24‐Hour Toll Free               800‐424‐5081  
                             Washington Metro Area           703‐487‐5435  
          
        By Fax:              703‐487‐5402
          
        By Internet :        www. doioig.gov /hotline
     




 




                                              

 
